     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303
February 23, 2012


Report Number: A-04-11-04013

Mr. Bruce W. Hughes
President & COO
Palmetto GBA
2300 Springdale Drive, Building One
Mail code: AG-A03
Camden, SC 29020-1728

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of Palmetto GBA’s Medicare Part B Final
Administrative Cost Proposals for Fiscal Years 2007 Through 2009. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24, or through email at
Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-11-04013 in all
correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Bruce W. Hughes


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  AUDIT OF PALMETTO GBA’S
   MEDICARE PART B FINAL
    ADMINISTRATIVE COST
 PROPOSALS FOR FISCAL YEARS
     2007 THROUGH 2009




                       Daniel R. Levinson
                        Inspector General

                         February 2012
                         A-04-11-04013
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Centers for Medicare
& Medicaid Services (CMS) administers the Medicare program through contracts with private
organizations that process and pay Medicare claims.

The contracts with CMS provide for the reimbursement of allowable administrative costs
incurred in processing Medicare claims. After the close of each fiscal year (FY), contractors
submit a Final Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once
CMS accepts a cost proposal, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

Palmetto GBA Contract

Palmetto GBA (Palmetto) is a single-member, limited liability company owned by BlueCross
BlueShield of South Carolina (BlueCross). During our audit period (FYs 2007 through 2009),
CMS contracted with Palmetto to serve as a Medicare contractor. Palmetto processed Part B
claims for South Carolina, Ohio, and West Virginia.

The Medicare contract between Palmetto and CMS set forth principles of reimbursement for
administrative costs. The contract cited the Federal Acquisition Regulation (FAR) (48 CFR
chapter 1) as the guiding regulatory principles for the Medicare contract, and provided additional
guidelines for specific cost areas.

OBJECTIVE

Our objective was to determine whether the administrative costs that Palmetto claimed on its cost
proposals were allowable, allocable, and reasonable in accordance with part 31 of the FAR and
the Medicare contract.

SUMMARY OF FINDINGS

Palmetto claimed administrative costs that substantially complied with the FAR and the
Medicare contract. Of the $110,857,845 in costs that we reviewed, $110,517,919 was allowable,
allocable, and reasonable in accordance with part 31 of the FAR and the Medicare contract.
However, Palmetto claimed $339,926 in its cost proposals that was not allowable including:

   •   $279,521 of unallowable costs ($261,242 from an indirect cost pool and $18,279 from
       two unallowable accounts),
   •   $46,656 of home office costs that exceeded the allocable amount, and
   •   $13,749 of costs that exceeded its general ledger costs.


                                                i
Palmetto claimed these unallowable costs because it lacked sufficient internal controls to ensure
that it did not claim expenses identified as unallowable and to ensure that it included all
allowable general ledger accounts in its cost proposals. In addition, Palmetto claimed
unallowable costs because BlueCross allocated home office costs to Palmetto that exceeded the
amount allocable to Palmetto’s Medicare Part B contract.

RECOMMENDATIONS

We recommend that Palmetto:

   •   reduce the costs claimed on its cost proposals by $339,926;

   •   improve its internal controls to ensure that it does not claim expenses it has identified as
       unallowable;

   •   have BlueCross allocate the various pools of home office costs periodically (e.g.,
       monthly or quarterly) in the aggregate rather than by account by cost center; and

   •   improve its internal controls to ensure that it includes all allowable general ledger
       accounts, including those with negative balances, when compiling its costs for cost
       proposals.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto concurred with all but one of our findings and
recommendations. Palmetto disagreed with our finding that home office indirect costs allocated
to the Part B contract exceeded the allocable amount by $46,656 and with the corresponding
recommendation that BlueCross allocate costs in the aggregate rather than by account by cost
center. Palmetto stated that BlueCross’s allocation methodology is necessary to preserve
transaction level information and that resulting rounding differences are immaterial. However,
to eliminate similar findings in the future, BlueCross said that it would initiate a year-end true-up
process to correct the inherent rounding differences.

Additionally, although Palmetto agreed that it incorrectly claimed $261,242 in unallowable costs
relating to an indirect cost pool, it requested that we reduce our recommended disallowance by
$100,436, representing the net amount of understated allowable costs from that same indirect
cost pool relating to other Medicare programs’ previously settled cost proposals for the same
time period. Palmetto’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to maintain that Palmetto should reduce the cost claimed on its cost proposals by
$339,926. With regard to home office indirect costs, we are pleased that BlueCross plans to
initiate a year-end true-up process for the 2011 year and we accept this as an alternative to
allocating the various pools of home office costs periodically in the aggregate. Had this process

                                                 ii
been implemented during our audit period, home office indirect costs allocated to the Part B
contract would have been reduced by $46,656.

Additionally, we acknowledge that, although Palmetto incorrectly claimed $261,242 in
unallowable costs relating to an indirect cost pool on its FY 2007 Part B cost proposal, it
similarly understated previously settled cost proposals by a net of $100,436 in costs from that
same indirect cost pool. Palmetto understated its FY 2007 Part A cost proposal by $141,126 and
overstated its FY 2007 Durable Medical Equipment Regional Carrier cost proposal by $40,690.
However, because our audit scope was limited to Part B cost proposals, we are unable to reduce
our recommended disallowance by the net $100,436 in understated costs related to other
programs’ previously settled cost proposals. Palmetto should work with CMS to resolve the net
understatement of costs related to the other programs.




                                               iii
                                                  TABLE OF CONTENTS
                                                                                                                                        Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Medicare Program ....................................................................................................1
              Palmetto GBA Contract ...........................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope ........................................................................................................................2
               Methodology ............................................................................................................2

FINDINGS AND RECOMMENDATIONS ................................................................................3

          UNALLOWABLE COSTS CLAIMED ..............................................................................4

          EXCESSIVE HOME OFFICE COSTS CLAIMED ............................................................4

          COSTS IN EXCESS OF GENERAL LEDGER COSTS ....................................................5

          RECOMMENDATIONS .....................................................................................................5

          PALMETTO GBA COMMENTS .......................................................................................5

          OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................6

APPENDIXES

          A: FINAL ADMINISTRATIVE COST PROPOSALS WITH RECOMMENDED
             COSTS FOR ACCEPTANCE AND RECOMMENDED COSTS FOR
             DISALLOWANCE FOR FISCAL YEARS 2007, 2008, AND 2009

          B: PALMETTO GBA COMMENTS




                                                                     iv
                                              INTRODUCTION

BACKGROUND

Medicare Program

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Centers for Medicare &
Medicaid Services (CMS) administers the Medicare program through contracts with private
organizations that process and pay Medicare claims.

The contracts with CMS provide for the reimbursement of allowable administrative costs
incurred in processing Medicare claims. After the close of each fiscal year (FY), contractors
submit a Final Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once
CMS accepts a cost proposal, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

Palmetto GBA Contract

Palmetto GBA (Palmetto) is a single-member, limited liability company owned by BlueCross
BlueShield of South Carolina (BlueCross). During our audit period (FYs 2007 through 2009),
CMS contracted with Palmetto to serve as a Medicare contractor. Palmetto processed Part B
claims for South Carolina, Ohio, and West Virginia.

The Medicare contract between Palmetto and CMS set forth principles of reimbursement for
administrative costs. The contract cited the Federal Acquisition Regulation (FAR) (48 CFR
chapter 1) as the guiding regulatory principles for the Medicare contract, and provided additional
guidelines for specific cost areas.

The costs that Palmetto claimed for reimbursement included direct costs of administering the
contract, as well as home office 1 costs that BlueCross allocated to Palmetto. 2




1
  A “home office” is an office responsible for directing or managing two or more, but not necessarily all, segments
of an organization. It typically establishes policy for, and provides guidance to, the segments in their operations
(48 CFR § 9904.403-30(a)(2)).
2
 BlueCross accumulated the home office costs in different pools and allocated them to its lines of business or to
other pools based on a variety of methods. The number of lines of business or other pools to which a cost pool was
allocated varied depending on the allocation methodology.


                                                         1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs that Palmetto claimed on its cost
proposals were allowable, allocable, and reasonable in accordance with part 31 of the FAR and
the Medicare contract.

Scope

Our audit covered the period October 1, 2006, through September 30, 2009 (FYs 2007 through
2009). For this period, Palmetto claimed administrative costs to CMS totaling $114,683,551.
This total included pension costs of $3,825,706 that will be the subject of a separate audit, so we
excluded them from this audit. We therefore reviewed $110,857,845 of administrative costs.

We limited our internal control review to those controls related to the recording and reporting of
costs on the cost proposals. We accomplished our objectives through substantive testing.

We conducted fieldwork at Palmetto’s office in Columbia, South Carolina, from January through
August 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidelines, including the FAR
        § 31.201-2(d), the Medicare Financial Management Manual, chapter 2, section 190.3,
        and Palmetto’s contract with CMS;

   •    interviewed officials at Palmetto and BlueCross about their cost accumulation processes
        for cost proposals and gained an understanding of its cost allocation systems;

   •    reconciled the cost proposals from FYs 2007 through 2009 to Palmetto’s accounting
        records;

   •    created a sampling frame of 35,508 employee pay periods totaling $52,560,949 that
        included cost centers with total costs of $100,000 or more and salaries of $10,000 or
        more for FYs 2007 through 2009;

   •    selected a judgmental sample of 90 employee pay periods (30 from each FY);

   •    verified that the amount paid was in accordance with the employee’s pay rate, the salary
        was charged to the correct cost center, and the number of hours paid agreed with the time
        sheets for the 90 employee pay periods;


                                                 2
    •    reviewed payroll journals, corporate bonus plans, and personnel records;

    •    compared top executives’ compensation to benchmark compensation amounts published
         in the Federal Register, and tested for excessive compensation claimed;

    •    created a sampling frame totaling $89,216,596 that consisted of the supporting general
         ledger account totals for the cost proposals’ cost classification lines, other than
         salaries/wages and fringe benefits, that exceeded $1 million for FYs 2007 through 2009;

    •    selected a judgmental sample of 90 nonsalary transactions (30 from each FY);

    •    tested the selected nonsalary transactions for allowability, allocability, and
         reasonableness;

    •    reviewed the allocation methodology for the home office indirect cost pools 3 that
         allocated more than $3 million per year to Palmetto; and

    •    recalculated the home office cost allocations for the cost pools reviewed using the
         allocation statistical bases provided by BlueCross and determined the excess allocated to
         Palmetto and, more specifically, the portion that was allocated to the Part B contract.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

Palmetto claimed administrative costs that substantially complied with the FAR and the
Medicare contract. Of the $110,857,845 in costs that we reviewed, $110,517,919 was allowable,
allocable, and reasonable in accordance with part 31 of the FAR and the Medicare contract.
However, Palmetto claimed $339,926 in its cost proposals that was not allowable including:

    •    $279,521 of unallowable costs,
    •    $46,656 of home office costs that exceeded the allocable amount, and
    •    $13,749 of costs that exceeded its general ledger costs.

Palmetto claimed these unallowable costs because it lacked sufficient internal controls to ensure
that it did not claim expenses identified as unallowable and to ensure that it included all

3
  Indirect cost pool means a grouping of incurred costs identified with two or more objectives but not identified
specifically with any final cost objective (48 CFR § 9904.401–30(a)(4)).


                                                          3
allowable general ledger accounts in its cost proposals. In addition, Palmetto claimed
unallowable costs because BlueCross allocated home office costs to Palmetto that exceeded the
amount allocable to Palmetto’s Medicare Part B contract.

UNALLOWABLE COSTS CLAIMED

Pursuant to FAR § 31.204(a), costs are allowable to the extent they are reasonable [and]
allocable…. Additionally, FAR § 31.205 provides a compilation of costs that are unallowable
and places limits on the amounts of certain other costs that are otherwise allowable. Palmetto’s
Medicare contract further restricts the types and amounts of costs that are allowable.

Palmetto properly identified costs in an indirect cost pool as unallowable according to FAR
§ 31.205 and its Medicare contract. However, Palmetto incorrectly allocated to the Medicare
Part B contract a portion of these costs that it had identified as unallowable and claimed these
costs on its FY 2007 cost proposal. The total unallowable costs claimed from the indirect cost
pool on the FY 2007 cost proposal was $261,242.

Additionally, Palmetto properly identified two accounts allocated to the Part B contract totaling
$18,279 as unallowable pursuant to FAR § 31.205-14 but incorrectly claimed the costs in these
accounts on its cost proposal. These costs are separate from the unallowable costs allocated from
the indirect cost pool.

In total, Palmetto claimed $279,521 in unallowable costs on its FY 2007 cost proposal. Palmetto
incorrectly claimed these costs because it did not have adequate internal controls in place to
prevent it from including costs in its cost proposal that it had identified as unallowable.

EXCESSIVE HOME OFFICE COSTS CLAIMED

Pursuant to FAR § 31.201-2(d), Palmetto is responsible for “... maintaining records, including
supporting documentation, adequate to demonstrate that costs claimed have been incurred, are
allocable to the contract, and comply with applicable cost principles....” Furthermore, FAR § 31-
203(d) states that “once an appropriate basis for allocating indirect costs has been accepted, the
contractor shall not fragment the base by removing individual elements.” 4

The total home office indirect costs that BlueCross allocated to Palmetto exceeded the allocable
amount by $247,196 for our audit period. Of the $247,196, $46,656 was allocated to Palmetto’s
Part B contract and claimed by Palmetto on the cost proposal. However, contrary to FAR
§ 31.201-2(d), Palmetto could not support that these expenses were allocable to the Part B
contract.

Palmetto claimed excessive home office indirect costs because BlueCross allocated indirect costs
to Palmetto in excess of the allocable amount. BlueCross did not adhere to FAR § 31.203(d)

4
    In BlueCross’ case, the elements included the lines of business or other cost pools.


                                                             4
when, at various points in the allocation process, it dropped allocations to certain elements
because it allocated by account, by cost center, rather than in the aggregate.

COSTS IN EXCESS OF GENERAL LEDGER COSTS

Pursuant to FAR § 31.201-2(d), Palmetto is responsible for “... maintaining records, including
supporting documentation, adequate to demonstrate that costs claimed have been incurred, are
allocable to the contract, and comply with applicable cost principles....”

On its FY 2008 cost proposal, Palmetto claimed costs that exceeded its general ledger costs by
$13,749. Palmetto did not include all allowable general ledger accounts on its cost proposal.
Because the excluded general ledger accounts together had a negative balance, Palmetto
overstated its costs by $13,749.

This overstatement occurred because Palmetto implemented a new accounting system in 2008
for which it did not have sufficient internal controls to ensure that it included all allowable
general ledger accounts, including those with negative balances, when compiling its costs for
cost proposals.

RECOMMENDATIONS

We recommend that Palmetto:

   •   reduce the costs claimed on its cost proposals by $339,926;

   •   improve its internal controls to ensure that it does not claim expenses it has identified as
       unallowable;

   •   have BlueCross allocate the various pools of home office costs periodically (e.g.,
       monthly or quarterly) in the aggregate rather than by account by cost center; and

   •   improve its internal controls to ensure that it includes all allowable general ledger
       accounts, including those with negative balances, when compiling its costs for cost
       proposals.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto concurred with all but one of our findings and
recommendations. Palmetto disagreed with our finding that home office indirect costs allocated
to the Part B contract exceeded the allocable amount by $46,656 and with the corresponding
recommendation that BlueCross allocate costs in the aggregate rather than by account by cost
center. Palmetto stated that BlueCross’s allocation methodology is necessary to preserve
transaction level information and that resulting rounding differences are immaterial. However,



                                                 5
to eliminate similar findings in the future, BlueCross said that it would initiate a year-end true-up
process to correct the inherent rounding differences.

Additionally, although Palmetto agreed that it incorrectly claimed $261,242 in unallowable costs
relating to an indirect cost pool, it requested that we reduce our recommended disallowance by
$100,436, representing the net amount of understated allowable costs from that same indirect
cost pool relating to other Medicare programs’ previously settled cost proposals for the same
time period. Palmetto’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to maintain that Palmetto should reduce the cost claimed on its cost proposals by
$339,926. With regard to home office indirect costs, we are pleased that BlueCross plans to
initiate a year-end true-up process for the 2011 year and we accept this as an alternative to
allocating the various pools of home office costs periodically in the aggregate. Had this process
been implemented during our audit period, home office indirect costs allocated to the Part B
contract would have been reduced by $46,656.

Additionally, we acknowledge that, although Palmetto incorrectly claimed $261,242 in
unallowable costs relating to an indirect cost pool on its FY 2007 Part B cost proposal, it
similarly understated previously settled cost proposals by a net of $100,436 in costs from that
same indirect cost pool. Palmetto understated its FY 2007 Part A cost proposal by $141,126 and
overstated its FY 2007 Durable Medical Equipment Regional Carrier cost proposal by $40,690.
However, because our audit scope was limited to Part B cost proposals, we are unable to reduce
our recommended disallowance by the net $100,436 in understated costs related to other
programs’ previously settled cost proposals. Palmetto should work with CMS to resolve the net
understatement of costs related to the other programs.




                                                  6
APPENDIXES
                                  APPENDIX A: FINAL ADMINISTRATIVE COST PROPOSALS

                                      WITH RECOMMENDED COSTS FOR ACCEPTANCE

                                     AND RECOMMENDED COSTS FOR DISALLOWANCE

                                          FOR FISCAL YEARS 2007, 2008, AND 2009


                                                 Fiscal Year       Fiscal Year       Fiscal Year
                  Cost Category                     2007              2008              2009             Total

Salaries and Wages                                $23,713,443       $10,469,967        $8,929,019       $43,112,429

Fringe Benefits                                    12,147,848         3,132,325         3,222,461        18,502,634

Facilities or Occupancy                             3,729,697                    0                 0      3,729,697

EDP Equipment                                       2,864,437             1,681            18,362         2,884,480

Subcontracts                                        3,387,482         3,702,255         2,732,019         9,821,756

Outside Professional Services                          25,131          330,381           108,860           464,372

Telephone and Telegraph                               833,257              660              2,296          836,213

Postage and Express                                 5,203,691         3,607,281         4,437,817        13,248,789

Furniture and Equipment                               428,446                    0                 0       428,446

Materials and Supplies                              1,080,399            60,695          115,670          1,256,764

Travel                                                436,935            89,973            80,392          607,300

Return on Investment                                  158,809          101,841           120,964           381,614

Miscellaneous                                       1,283,175                    0     29,205,549        30,488,724

Other                                                          0     29,776,752                    0     29,776,752

Credits                                           (13,989,443)      (13,551,520)      (13,315,456)      (40,856,419)

Forward Funding                                                0                 0                 0              0

                        Total Costs Claimed       $41,303,307      $37,722,291       $35,657,953       $114,683,551
            Less Pension Costs Not Reviewed         1,716,964          968,057         1,140,685          3,825,706
                       Total Costs Reviewed       $39,586,343      $36,754,234       $34,517,268       $110,857,845

         Less: Recommended Disallowances
    Unallowable Costs From Indirect Cost Pool        $261,242               $0                 $0         $261,242
                      Other Unallowable Costs          18,279                0                  0           18,279
                 Overstated Home Office Costs          39,308            2,102              5,246           46,656
         Costs in Excess of the General Ledger              0           13,749                  0           13,749
         Total Recommended Disallowances             $318,829          $15,851             $5,246         $339,926

                  Recommended for Acceptance      $39,267,514      $36,738,383       $34,512,022       $110,517,919
                                                                                                                 Page 1 of 3 



              APPENDIX B: PALMETTO GBA COMMENTS




l.LJ Palmetto GBA.
                PARTNERS IN EXCELLENCE .                                                         Pre~dentand
                                                                                                                 Bruce W. Hughes
                                                                                                               ChiefOperatir.g Officer




 December 28, 2011



 Lori S.Pilcher
 Regional Inspector General for Audit Services
 Region IV
 61 Forsyth Street, SW, Suite 3T41
 Atlanta, Georgia 30303

 Dear Ms. Pilcher:

 RE: Audit Report Number A·04·11·04013

 We are responding to your draft audit re}Xlrt dated November 28, 2011 entitled "Audit of Palmetto
 GBA's Medicare Part B Final Administrative Cost Proposals for Fiscal Years 2007 through 2009."

 The draft report contained the following reconunendatioIlS. Our responses to the recommendations are
 provided below.

 We reconunend that Palmetto GBA:

    •   Reduce the cost claimed on its cost proposals by $339,926;
    •   Improve its internal controls to ensure that it does not claim expenses it has identified as
        unallowable;
    •   Have BlueCross allocate the various pools of horne office cost periodically (e.g., monthly or
        quarterly) in the aggregate rather than by accOllllt by cost center; and
    •   Improve its internal controls to ensure that it includes all allowable general ledger accOllllts,
        including those with negative balances, when compiling its cost for cost proposals.

 Contractor Response:

    •   Palmetto GBA agrees with the computation of unallowable cost included on the 2007 cost
        proposal in the amount of $261,242. In an effort to reduce the size and complexity of the true
        up journal entry, Palmetto GBA rolled all natural accounts into one account (6GA3) and in the
        process, inadvertently included unallowable accounts. This account roll up was an isolated
        occurrence and the process was inunediately revised to maintain original account numbers and
        descriptions, making unallowable cost evident. Palmetto GBA believes this cost should be
        netted against the previously settled 2007 Part A and DMERC cost proposals. With this
        adjustment, Palmetto GBA agrees to a cost reduction on the FY 2007 Part B cost proposal of
        $160,806.


                                   www.palmetto ¢ acom I PostOfficeBOX:100134
                                               ISO 9001 Col Lm bia, South Carolina 29202-3"134
                                                                                                   Page 2 of 3 





    $. Pilcher
December 28, 2011
Page 1


        •   Palmetto GDA agrees wit h a reduction in proposed cost of S18,279 related to Wlallowahk cost
            on the FY 2007 cost proposal. Arl allempt was made to exclude the wmllowable aCCOlllllS
            when the repolt was cr.::ated from Pahn.::tto GBA's costing syst.::m, however, two unallowable
            ac(.vunt~ wen:: o\erlooked while ~dt ing up the report ,rnd inclwJed in the Qutpul. 111i$ erTQr
            resulted in overstated cosl. nlis proecss has bttn reviscd with Palmetto GB A's convcrsion to
            Ochck eostpoint software in Octobcr 2007. Palmcllo GOA estab li ~hcd a unique account mnge
            for unallowable cost, where in the past. unallowable accounts were embedded throughout the
            entire admini$tr.ltive expense aocOWlt range. Palmetto OBA ha~ created ~tatic report~ within
            Costpoint, allowing for the elllire unallowable account range to be excluded in the aggregate.

        •   PalmellO GDA disagrees wilh thc disallowancc of the Homc Officc cost in the amount of
            $46,656. We believe this cost to be allowable. allocable and reasonable. We further disagree
            with recommendation that BCBSSC allQcale the Home OOlce CQst in the aggregate (~ee
            narrative below). Our Home Office allocates hundreds of millions of dollars and it is
            impmctical to expect refincmcnt of al locat ion~ to thc levcl suggcsted by this audit report.

               o BCBSS'C·s Home Office allocation process was designed with many considerations. one
                  of which being the ability to take allocated costing data and link back to the transaction
                  which documents the original entry to the costing system. This link is critical to enable
                  HCHSSC to satisfy audit requirements such as the ones that arose for this Medicare
                  Part B audit. Therefore. the statement in the audit report concerning ··allocating in the
                  aggregate versus by (lccount by cost center ·· rum contrary to the need for researching
                 Home Office pool expenses or /ii/filling audit requests. If BCBSSC Home ojJice costs
                  are allocated in the aggregate. the link which tie.I' allocated costing mmlts back to
                  original source of the expense would be lost. resulting in the inability to /idfill audit
                  requests for the sOl/rce documentation
               o This detail allocation process used by the BCBSSC HOllie Office involves a significant
                  alllount of costing transactions and data records. Thlls. some rounding is inherent. The
                  amOllnts are deemed to be immaterial to anyone particular bllsine~'s segment.
                  However. as a resllit of this finding and to eliminate the possibility of similar findings in
                  the fill lire. BCBSSC will initiate a year.end tl"lle'lIp process for the 2011 year to sellie
                  the variances between the allocated costing detail and the results which would occl/r
                 from an aggregating methodology. The entry will be made in the first quarter of 2011
                  and all subsidiaries will be notified so that any necessmy filings can be IIpdated.

        •   Palmetto GOA agrees with a reduct ion in cost related to its 2008 cost proposal in the amou nt of
            S13,749. TIlis allowable cost, which had credit balances, was included in the three prior cost
            proposals, but was inadvertently excluded from the final, callsing an overstatement of allowable
            cost. The inclusion or this cost ~lied on a manual process, which has been eliminated with the
            addition Or~i!\"e ral ncw poob which automatcd thc CO!;t allocation procc~s .




                                                rs.o,."._ I,.......... s"''"'"
                                                                           '''''><
                                       ........"'.... ,,'"9'>0 ",m p"" Of\\<o !o,
                                                                                 ......,.''J!l'o
                                                                                                       Page 3 of 3 





    $ . Pilcher
De cember 28, 2011
Page 3


         •   Palmetto GOA agrees with the reeommendatiml to improve our policies and proeedures for
             maintaining documentation to support that costs included on our cost proposals were incurred,
             allocable to the contract, and compliant with applicable cost principles. Palmetto GBA has
             implemented multiple automated proces~es to replac.:: tho~e that w.:::re manual flUlctions.
             Palmetto GOA will takc any other steps decmed necessary to implement this recommendation.

             If you have an y {IUestions, please feel free to contact me at 803-763-7130.


                                                                      Sincerely




        cc:   Joe Wright, Palmetto GOA
              1. . lark Wimple, OIG




                                                  rs.o,." .... I, .......... sOU'"'"
                                                                                '''''>'>
                                         ........"'.... ,,'"9'>0 ",m p"" 01\\<0 !o,
                                                                                      ......,."J!l'o
